No.

IN THE
SUPREME COURT OF THE UNITED STATES

BRANDON ROBINSON

— PETITIONER

(Your Name)
VS.
METZGER, ET. AL.

— RESPONDENT(S)

PROOF OF SERVICE
BRANDON ROBINSON _________________ , do swear or declare that on this date,
I,
APRIL 15
, 2021 , as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
DELAWARE ATTORNEY GENERAL
820 N. FRENCH STREET
WILMINGTON, DE 19801

I declare under penalty of perjury that the foregoing is true and correct.
Executed on APRIL 15

,20il_

Ilk

(Signature)

